Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   NEW JERSEY GENERALLY
    REPORTED MEDICAID
OVERPAYMENTS IN ACCORDANCE
 WITH FEDERAL REGULATIONS
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                           Gloria L. Jarmon
                                        Deputy Inspector General

                                             September 2012
                                              A-02-10-01009
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In New Jersey, the Department of Human Services (State agency) administers the Medicaid
program. The State agency uses a statewide surveillance and utilization control program to
safeguard against unnecessary or inappropriate use of Medicaid services and excess payments.
In March 2009, the State agency’s program integrity functions, including audits of Medicaid
providers, were transferred to the Office of the Medicaid Inspector General. The Medicaid Fraud
Control Unit also conducts audits and investigations of Medicaid providers, and the Department
of Health and Senior Services conducts audits of institutional providers. When these agencies
identify overpayments, they send letters to the providers that (1) identify the overpayment
amount and (2) direct the providers to send payment to the State agency or notify the providers
of future payment offsets. Providers are notified of overpayment amounts related to fraud and
abuse through settlement agreements and court decisions.

Section 1903(d)(2) of the Act requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State agency to refund
the Federal share of an overpayment to a provider at the end of the 60-day period following the
date of discovery, whether or not the State agency has recovered the overpayment. The date of
discovery for situations other than fraud or abuse is the date that a provider was first notified in
writing of an overpayment and the specified dollar amount subject to recovery (42 CFR
§ 433.316(c)). For provider overpayments resulting from fraud or abuse, discovery occurs on the
date of the State’s final written notice of the overpayment determination (42 CFR § 433.316(d)).
Federal regulations (42 CFR § 433.304) define an overpayment as “… the amount paid by a
Medicaid agency to a provider in excess of the amount that is allowable for the services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act.” Because the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64, is due on a quarterly basis, the CMS State Medicaid Manual
requires the Federal share of the overpayments be reported no later than the quarter in which the
60-day period ends.

OBJECTIVE

Our objective was to determine whether the State agency reported Medicaid overpayments on
the CMS-64 in accordance with Federal regulations.




                                                 i
SUMMARY OF FINDINGS

The State agency generally reported Medicaid overpayments in accordance with Federal
requirements. However, it did not report all of them in accordance with Federal requirements.
For Federal fiscal years 2008 and 2009, the State agency did not report Medicaid overpayments
totaling $2,812,968 ($1,406,486 Federal share) in accordance with Federal requirements.

Of the 180 overpayments we reviewed, 14 were partially reported or not reported on the
CMS-64. The remaining 166 were reported correctly. The State agency also did not report all
Medicaid provider overpayments within the 60-day time requirement. The State agency did not
properly report these overpayments because it had not developed and implemented policies to
ensure that overpayments were reported on the correct CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments of $2,812,968 on the CMS-64 and refund
       $1,406,486 to the Federal Government and

   •   develop and implement policies to ensure that future Medicaid overpayments are reported
       on the correct CMS-64 in accordance with Federal requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency partially agreed with our first
recommendation and concurred with our second recommendation. Specifically, the State agency
agreed with our findings related to five overpayments and disagreed with the remaining nine
overpayments. Regarding our second recommendation, the State agency indicated that it intends
to create and implement policies to ensure that future Medicaid overpayments are reported on the
correct CMS-64 in accordance with Federal requirements. The State agency’s comments are
included as the Appendix.

After reviewing the State agency’s comments and additional documentation that it subsequently
provided, we revised our findings and recommendations as appropriate. We maintain that the
State agency should include unreported Medicaid overpayments of $2,812,968 on the CMS-64
and refund $1,406,486 to the Federal Government.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal Requirements for Medicaid Overpayments ...........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          OVERPAYMENTS NOT REPORTED ..........................................................................4

          OVERPAYMENTS NOT REPORTED TIMELY ..........................................................4

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................5
               Incorrect Overpayment Amount ..........................................................................6
               Court-Ordered Payments .....................................................................................6
               Employee Overpayments .....................................................................................7
               Out-of-Business Provider.....................................................................................8
               Independent Contractor ........................................................................................8

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                                 INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64).

In New Jersey, the Department of Human Services (State agency) administers the Medicaid
program. The State agency used a statewide surveillance and utilization control program to
safeguard against unnecessary or inappropriate use of Medicaid services and excess payments. 1
In March 2009, the State agency’s program integrity functions, including audits of Medicaid
providers, were transferred to the Office of the Medicaid Inspector General (OMIG). 2 Further,
the Medicaid Fraud Control Unit (MFCU) also conducts audits and investigations of Medicaid
providers, and the Department of Health and Senior Services conducts audits of institutional
providers. When these agencies identify overpayments, they send letters to the providers that
(1) identify the overpayment amount and (2) direct the providers to send payment to the State
agency or notify the providers of future payment offsets. Providers are notified of overpayment
amounts related to fraud and abuse through settlement agreements and court decisions.

Federal Requirements for Medicaid Overpayments

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary of Health and
Human Services to recover the amount of a Medicaid overpayment. Federal regulations
(42 CFR § 433.304) define an overpayment as “… the amount paid by a Medicaid agency to a
provider in excess of the amount that is allowable for services furnished under section 1902 of
the Act and which is required to be refunded under section 1903 of the Act.” A State has
60 days from the discovery of a Medicaid overpayment to a provider to recover or attempt to
recover the overpayment before the Federal share of the overpayment must be refunded to


1
    Overpayments to hospitals are identified by the State agency through reviews of hospital cost report filings.
2
 OMIG’s duties and functions were transferred in June 2010 to the Office of the State Comptroller’s Medicaid
Fraud Division.


                                                             1
CMS. 3 Section 1903(d)(2)(C) of the Act, as amended by the Consolidated Omnibus Budget
Reconciliation Act of 1985, and Federal regulations at 42 CFR part 433, subpart F, require a
State to refund the Federal share of overpayments at the end of the 60-day period following
discovery whether or not the State has recovered the overpayment from the provider. 4 Pursuant
to 42 CFR § 433.316(c), an overpayment that is not a result of fraud or abuse is discovered on
the earliest date:

        (1) ... on which any Medicaid agency official or other State official first notifies a
        provider in writing of an overpayment and specifies a dollar amount that is
        subject to recovery; (2) ... on which a provider initially acknowledges a specific
        overpaid amount in writing to the Medicaid agency; or (3) ... on which any State
        official or fiscal agent of the State initiates a formal action to recoup a specific
        overpaid amount from a provider without having first notified the provider in
        writing.

Pursuant to 42 CFR § 433.316(d), an overpayment resulting from fraud or abuse is discovered on
the date of the final written notice of the State’s overpayment determination that a Medicaid
agency official or other State official sends to the provider. For overpayments identified through
Federal reviews, 42 CFR § 433.316(e) provides that an overpayment is discovered when the
Federal official first notifies the State in writing of the overpayment and the dollar amount
subject to recovery.

Federal regulations (42 CFR § 433.320) require that the State refund the Federal share of an
overpayment on its quarterly Form CMS-64. Provider overpayments must be credited on the
CMS-64 submitted for the quarter in which the 60-day period following discovery ends.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency reported Medicaid overpayments on
the CMS-64 in accordance with Federal regulations.

Scope

Our review covered Medicaid provider overpayments that were identified in audit reports,
settlement agreements, court decisions, and overpayment letters issued to providers that should
have been reported on the CMS-64 during Federal fiscal years (FY) 2008 and 2009. We also
reviewed overpayments partially reported during our audit period that were identified by the

3
  Effective March 23, 2010, section 6506 of the Patient Protection and Affordable Care Act (P.L. No. 111-148)
provides an extension period for the collection of overpayments. Except in the case of overpayments due to fraud,
States have up to 1 year from the date of discovery of a Medicaid overpayment to recover, or to attempt to recover,
such overpayment before making an adjustment to refund the Federal share of the overpayment. For overpayments
identified before the effective date, the previous rules on discovery of overpayments remain in effect.
4
  Section 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require the State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.


                                                         2
State agency prior to our audit period. We reviewed a total of 180 overpayments totaling
$97,085,221. 5

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments.

We performed fieldwork at the State agency’s, OMIG’s, and the Department of Health and
Senior Services’ offices in Trenton, New Jersey.

Methodology

To accomplish our audit objective, we:

    •    reviewed Federal laws, regulations, and CMS State Medicaid Manual provisions
         governing Medicaid overpayments;

    •    interviewed State officials regarding policies and procedures relating to Medicaid
         overpayments subject to the 60-day rule and reporting overpayments on the CMS-64;

    •    identified 180 overpayments for Medicaid services subject to the 60-day rule, which
         totaled $97,085,221;

    •    established the dates of discovery using the dates that the State notified Medicaid
         providers in writing of the overpayments and the dollar amount subject to recovery;

    •    established dates of discovery using the date of settlement agreements and court
         decisions;

    •    determined the quarter in which the 60-day period following discovery of the
         overpayment ended;

    •    reviewed documentation from the State agency, OMIG, the Department of Health and
         Senior Services, and MFCU to determine whether Medicaid overpayments were reported;

    •    reviewed the CMS-64 to determine whether the Medicaid overpayments were reported
         within the quarter in which the 60-day period following discovery ended;

    •    reviewed the CMS-64 to determine whether Medicaid overpayments were reported
         during any subsequent quarter through March 31, 2010;

    •    calculated the value of the overpayments that were not reported; and


5
 The identified audit reports, settlement agreements, court decisions, and overpayment letters represent
overpayments that were subject to the 60-day rule.


                                                         3
    •   determined whether providers associated with unreported overpayments were bankrupt or
        out of business.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency generally reported most Medicaid overpayments in accordance with Federal
requirements. However, it did not report all of them in accordance with Federal requirements.
For Federal FYs 2008 and 2009, the State agency did not report Medicaid overpayments totaling
$2,812,968 ($1,406,486 Federal share) as of March 31, 2010, in accordance with Federal
requirements.

Of the 180 overpayments we reviewed, 14 were partially reported or not reported on the
CMS-64. The remaining 166 were correctly reported. Further, the State agency also did not
report all Medicaid provider overpayments within the 60-day time requirement. The State
agency did not properly report these overpayments because it had not developed and
implemented policies to ensure that overpayments were reported on the correct CMS-64.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “… must refund the Federal share of
overpayments at the end of the 60-day period following discovery … whether or not the State
has recovered the overpayment from the provider.” The regulation provides an exception only
when the State is unable to recover the overpayment amount because the provider is bankrupt or
out of business (42 CFR § 433.318).

For Federal FYs 2008 and 2009, the State agency did not report Medicaid overpayments in
accordance with Federal requirements. Of the 180 overpayments that we reviewed,
14 overpayments, totaling $2,812,968 ($1,406,486 Federal share), were partially reported or not
reported on the CMS-64. 6

OVERPAYMENTS NOT REPORTED TIMELY

Pursuant to 42 CFR § 433.312(a)(2), the State agency “... must refund the Federal share of
overpayments at the end of the 60-day period following discovery ... whether or not the State has
recovered the overpayment from the provider.” For situations other than fraud and abuse,
Federal regulations (42 CFR § 433.316(c)) define the date of discovery as the date that a
provider was first notified in writing of an overpayment and the specified dollar amount subject
to recovery. For overpayments resulting from fraud or abuse, the date of discovery is defined at

6
 Figures are adjusted to reflect portions of partially reported overpayments that were not reported. For these
overpayments, the State agency reported only the portion collected—not the amount of the entire overpayment.


                                                         4
42 CFR § 433.316(d) as the date of the final written notice of the overpayment determination
that the State sends to the provider. These regulations do not allow for extending the date.

During our review, the Federal regulation was changed to extend the 60 days to 1 year; however,
the effective date of the change was after our audit period. During our audit period, the State
agency did not report all Medicaid provider overpayments in accordance with the 60-day
requirement. Of the 180 overpayments we reviewed, the State agency reported 176
overpayments on the CMS-64, which included 10 overpayments that were only partially
reported. For the 176 overpayments that were reported, 42 overpayments totaling $552,813
($276,427 Federal share) were not reported on the CMS-64 at the end of the 60-day period. The
State agency did not report these payments on the correct CMS-64 because it used the date that it
collected the overpayment to report the collection—not the end of the 60-day period following
the date of discovery. This occurred because the State agency did not have policies to address
reporting overpayments on the correct CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

    •   include unreported Medicaid overpayments of $2,812,968 on the CMS-64 and refund
        $1,406,486 to the Federal Government and

    •   develop and implement policies to ensure that future Medicaid overpayments are reported
        on the correct CMS-64 in accordance with Federal requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency partially agreed with our first
recommendation and concurred with our second recommendation. Specifically, the State agency
agreed with our findings related to five overpayments and disagreed with the remaining nine
overpayments. Regarding our second recommendation, the State agency indicated that it intends
to create and implement policies to ensure that future Medicaid overpayments are reported on the
correct CMS-64 in accordance with Federal requirements. The State agency’s comments are
included as the Appendix.

After reviewing the State agency’s comments and additional documentation that it subsequently
provided, we revised our findings and recommendation as appropriate. We maintain that the
State agency should include unreported Medicaid overpayments of $2,812,968 on the
CMS-64 and refund $1,406,486 to the Federal Government. 7




7
 This amount includes $16,128 ($8,066 Federal share) related to the five overpayments that the State agency agreed
with.


                                                        5
Incorrect Overpayment Amount

State Agency Comments

The State agency indicated that, for one overpayment, the correct overpayment amount was
$2,803, not $4,880.

Office of Inspector General Response

We are not questioning the overpayment amount of $2,803, which was correctly reported.
However, the State agency should have included an additional overpayment of $4,881 8 on the
CMS-64 and refunded the Federal share of $2,440 to the Federal Government.

Court-Ordered Payments

State Agency Comments

The State agency commented on four court-ordered payments questioned in our draft report.
Specifically, the State agency stated that:

      •    One overpayment totaling $5,500 ($2,750 Federal share) was related to a court order that
           was not reported on the CMS-64 because these funds were not collected from the
           associated individual.

      •    A second overpayment totaling $13,502 ($6,451 Federal share) 9 was related to an
           employee ordered by a court to pay restitution to the State agency; therefore, the Federal
           Government is entitled to receive its share of the overpayment as the State collects it.

      •    A third overpayment involving a court order totaling $51,826 ($25,913 Federal share)
           was repaid in 2010 to a court, but the court failed to forward $7,763 of that amount to the
           State, which the State agency still owes to the Federal Government. The State agency
           implied that it refunded the difference to the Federal Government.

      •    A fourth overpayment totaling $5,500 ($2,750 Federal share) was a court-ordered fine
           that was not payable to the State agency.

Office of Inspector General Response

Pursuant to 42 CFR § 433.312, the full amount of the Federal share of the overpayment to the
provider should be refunded to CMS within the statutory timeframe, whether or not the State has
recovered the full amount of the overpayment from the provider who submitted the claims. This

8
    The difference between the State agency’s amount ($4,880) and our amount ($4,881) is due to rounding.
9
 The State agency commented that the total Federal share of the overpayment was $6,451, but this amount included
payments collected after our audit period that we did not verify. As of March 31, 2010, the correct Federal share
was $6,751.


                                                          6
requirement also applies to refunds of the Federal share for other overpayments discussed in the
State agency comments below. CMS provided additional guidance on refunding the Federal
share of Medicaid overpayments in an October 28, 2008, letter to State health officials (SHO
#08-004). According to the letter, CMS is entitled to the Federal share of a State’s entire
settlement or final judgment amount and that, when a settlement occurs or judgment is rendered,
the State must report the refund of the Federal share on the next CMS-64. In addition,
SHO #08-004 states that “A State may not avoid adhering to the requirements set forth in section
1903(d) of the Act by virtue of pursuing legal action against a person or entity that has caused
false or fraudulent claims to be submitted rather than the party that directly submitted false or
fraudulent claims.”

Based on the above Federal requirements, we maintain that the State agency should include the
four unreported Medicaid overpayments ($5,500, $13,502, $51,826, and $5,500) on the CMS-64
and refund the associated Federal share ($2,750, $6,751, $25,913, and $2,750) to the Federal
Government. 10

Employee Overpayments

State Agency Comments

The State agency commented on two overpayments questioned in our draft report related to
providers’ individual employees. Specifically, the State agency indicated that:

     •   One overpayment totaling $2,478,575 ($1,239,288 Federal share) 11 involved an
         individual who worked for a provider that went out of business. The individual was
         ordered by a U.S. District Court to pay restitution to the State agency. The State agency
         commented that it is required to pay the Federal Government its share of any
         overpayment only as it is received, because the individual was not a provider and the
         provider went out of business.

     •   One overpayment totaling $18,675 (Federal share) was related to an employee who was
         ordered by a court to pay restitution to the State agency. The State agency commented
         that it did not recover any additional funds, and the remaining amount due the Federal
         Government will be shared as it is collected.

Office of Inspector General Response

SHO #08-004 states that “A State may not avoid adhering to the requirements set forth in section
1903(d) of the Act by virtue of pursuing legal action against a person or entity that has caused
false or fraudulent claims to be submitted rather than the party that directly submitted false or

10
  Regarding the third overpayment, for which the State agency implied that it had partially refunded the money, we
did not verify this amount because it did not appear on the CMS-64 as of March 31, 2010.
11
  The State commented that the Federal share of the overpayment was $1,239,288; however, we determined that the
total unreported overpayment is $2,487,675 (1,243,838 Federal share). We did not verify any additional payments
that the State may have received after March 31, 2010.


                                                        7
fraudulent claims.” For this reason, we maintain that the State agency should include the
unreported Medicaid overpayments ($2,487,675 and $37,350) on the CMS-64 and refund the
Federal share ($1,243,838 and $18,675) to the Federal Government.

Out-of-Business Provider

State Agency Comments

The State agency indicated that one overpayment totaling $200,544 ($100,272 Federal share) 12
involved a provider that went out of business and that the State was obligated to return any
overpayment to the Federal Government only as repayments were made.

Office of Inspector General Response

The State agency did not provide adequate documentation to support its claim that the provider
was out of business. Pursuant to 42 CFR § 433.318(d)(2), the State agency must make available
an affidavit or certification from the appropriate State legal authority that the provider is out of
business and the overpayment cannot be collected. The State agency did not provide such
documentation; therefore, we maintain that the State agency should include the unreported
Medicaid overpayments ($187,978) on the CMS-64 and refund the Federal share ($93,989) to
the Federal Government.

Independent Contractor

State Agency Comments

The State agency commented that one overpayment totaling $2,970 13 was related to an
independent contractor ordered by a court to pay restitution to the State agency. The State
agency commented that it is obligated to return any overpayment to the Federal Government
only as repayments are made.

Office of Inspector General Response

SHO #08-004 states that “A State may not avoid adhering to the requirements set forth in section
1903(d) of the Act by virtue of pursuing legal action against a person or entity that has caused
false or fraudulent claims to be submitted rather than the party that directly submitted false or
fraudulent claims.” For this reason, we maintain that the State agency should include this
unreported Medicaid overpayment of $2,628 on the CMS-64 and refund the Federal share of
$1,314 to the Federal Government.



12
  The State agency indicated that the overpayment was $200,544; however, our analysis of the State agency’s
records indicated an overpayment of $187,978 ($93,989 Federal share).
13
  The State agency indicated that the overpayment was $2,970; however, our analysis of the State agency’s records
indicated an overpayment of $2,628 ($1,314 Federal share).


                                                        8
APPENDIX
                                                                                                             Page 1 of5


                            APPENDIX: STATE AGENCY COMMENTS 





                                             5Ilnh of ,N.£o        ilJ....V
C URlS CURlSTIE                             DEPARTMENT OF H UMAN SERV ICES
   (;()vt'rJlQr                  D IVISION OF MEDICAL AsSISTANCE AND HEALTII SERVICES
KIM GUADAGNO                                          PO Box 712
                                                                                                       JENl'llfEl V a.u
  U. GoW'rnor                                   TltElITON, NJ 08625-0112
                                                                                                        Commi.uiollU
                                                                                                        V" La.IE H ARtl
                                                    June 25, 2012                                            DII'tt/(}r




            James P . Edert
            Regional Inspector General for Audit Services
            Department of Health and Human Services
            Office of Inspector General
            Office of Audit Services Region It
            Jacob K. Javils Federal Building
            26 Federal Plaza - Room 3900
            New York, NY 10278

            Report Number: A·02·1 0..Q1009

           Dear Mr. Edert

           ThiS is in response to your letter dated April 26, 2012 concerning the Department of Health and
           Human Services, Office of the Inspector General's (DIG) draft report entitled "New Jersey
           Generally Reported Medicaid Overpayments In Accordance With Federal Regulations". Your
           leiter provides the opportunity to comment on this draft report.

           The objective of this audit was to determine whether the Division of Medical Assistance and
           Health Services (DMAHS) reported Medicaid overpayments on the CMS-54 in accordance with
           Federal regula tions.

           The draft audit report concluded that OMAHS generally reported Medicaid overpayments in
           accordance with Federal requirements. However, it did not report all of them in accordance with
           Federal requirements. For Federal FYs 2008 and 2009, mMHS did not report Medicaid
           overpayments totaling $3,151,354 ($1,575,679 Federal share) in accordance with Federal
           requi rements. Of the 180 overpayments reviewed, 18 were partially reported or not reported on
           the eMS-54. The remaining 162 were reported correctly. OMAHS also did not report all
           Medicaid provider overpayments within the eO-day time requirement. DMAHS did not properly
           report these overpayments because it had not developed and implemented policies to ensure
           that overpayments were reported on the correct CMS-54.

           As noted in the draft report, the audit period was from October " 2007 to September 30, 2009.
           The DMAHS program integrity function was transferred to the Office of the Medicaid Inspector
           General in March 2009, which subsequently became the Medicaid Fraud Division (MFD) of the
           Office of the Stale Comptrotter in June 2010.
                                                                                                                        Page 2 of5



 James P. Edert
 June 25, 2012
 Page 2


 We appreciate the opportunity to provide this response to the draft OIG audit report. Following
 are the auditors' recommendations and the Division of Medical Assistance and Health Services'
 and Medicaid Fraud Division's responses:

 Recommendation 1:

 The DIG recommends that DMAHS refund $1 ,575,679 to the Federal Government.

 The State does not concur in all aspects of this recommendat ion. The following lists the cases
 the OIG Auditors recommended that the slate reimburse the federal government.                                   Our
 response to each case is indicated below.

_     is listed by the OIG Auditors as having an overpayment amount of $4,880. This is not the
correct overpayment amount. The correct amount is $2,803.07, discovered pursuant to an audit
conducted by AmeriGroup (one of OMAHS's Medicaid Managed Care Organizations). The audit
reported an overpayment of $2 ,803.07. The federa l share of $1,401 .54 was included in the CMS
64 payments for the third quarter of 2009.

_        is listed by the OIG Auditors as having an overpayment amount of $11 ,000, and that
 $5,500 was unreported by the state. This case involves court ordered restitution of $5,500. _
• was sentenced on November 21 , 2008. _                paid the $5,500. No additional funds were
 collected from this individual so that $2,250 is due the federal government.

_        is listed by the OIG Auditors as having an overpayment amount of $19,902, and that
 $13,502 was not reported. This case involves court ordered restitution of $50 per month from
_         and the current total collected is $7,000. 42 CFR §433.312 at the time of this audit
 states that the state must share overpayments made to providers with the federal government
 within 60 days of the date of discovery, whether or not the State has recovered the
 from the provider. 42 CFR §433 .304 defines provider as any individual or entity
 Medicaid services under a provider agreement with the Medicaid
_         was not a Medicaid provider. He was an optician who ··.. L: O· •.. :·
 which was a provider. Therefore the federal government is entitled to        I i
of the overpayment as the state collects it. The slate has been sharing i
government as it collects money from _          , and currently the CMS has received
State owes CMS $6,451 , to be paid as it is collected.

_       was convicted of Medicaid Fraud and other charges. He was sentenced to pay restitution
of $152,215, payable to the OMAHS, and a criminal fine of $75,000. The OIG Auditors' stated
 that the overpayment was $227,215, and that $166,326.69 was not reported. This was incorrect
since the auditors clearly added the restitution and the fine to reach this amount.

             r 7, 2004, _      pharmacist license was revoked. He was co-owner of _


ft          , the provider, which wa s terminated from the Medicaid program on September 22,
2000. . was also
§433.1 (2)(b)(2), i
overpayment was i
obligated to return any
                                      I            i slate prison. Therefore, pursuant to 42 CFR
                                                           out of business prior to the date that the
                                                         was January 26. 2004), the stale was only
                                        to the fed eral government as they were received. As of this
date the eMS has                  ,836.15 of its share. The State owes CMS $120,378.85, to be
paid as it is collected.


Office of In spoc:tor General note : The deleted text has bee n redacted because it conta ins personally identitiable
and/or olh er sens; li, C il1foml;lliOH.
                                                                                                                               Page 3 of5



 James P. Edert 

 June 25, 2012 

 Page 3 



 ~as convicted in federal court on December 12, 2005 and
 $2 ,500,000 10 the U.S. District Court. _       was a
 _      Iosl his pharmacist's license on May 25 . .•."""."""
 from the Medicaid progra ~ mber 16,                    .                             aware of this
 ca se was upon receipt of_          firs! restitution check, which was processed by the court and
 sent to DMAHS on February 16, 2007. To dale he has paid $21,425.

 The State of New Jersey is only required to pay the federal government its share of any
 overpayment as It is received.    was not a provider nor was he an owner of the pharmacy
 (42 CFR §433.04) and the provider went out of business (42 CFR §433.318). eMS has received
 51 0,712.50 to dale, and Is owed $1,239.287.50 to be paid as it is collected.

 _     was Identified by the OIG Auditors as owing ~$51 . 825.65 was not
 reported. _     was a pharmacist and part owner of ~ The pharmacy was
 terminated from the Medi cai~m on January 12, 2001 . The pharmacy was declared
 bankrupt on June 5,1998 and _       pharmacist license was revoked on July 15, 2003.

_       was sentenced in federal court on March 21 , 2003. and ordered to pay restitution of
$65,675.55, $64,394.47 of which was to be paid to DMAHS and the remaining $981 .08 10 be
paid to a private individual. . restitution was ordered to be jointly paid with his brother. Thus
the total restitution orderedTor both brothers was $64,394.47. Restitution was paid In full in
2010, but the U.S. District Court failed to forward the last $7,763 to the state. The court is now
going to do so and the federal government will receive the remainder of its share of Ihe
overpayment when the state receives the money from the court._            was listed by the auditors
as owing $64,300 in addition to the amount owed by his brother, As indicated above, this is not
the case. All the facts listed with respect to _         apply here. _           license to practice
medicine was revoked on April 30, 2001 .        Restitution was paid in full. except as explained
above.

                             to pay $21 4,840 in restitution on March 8, 2002. He was the owner of .


                       ~1~:i~::~~:i~~W~?.''~I:~:~;;:~
                              was i
                                                                      out on  August 7,prior
                                                                          of business   1998.
                                                                   2002) , the state was only
obligated to return any overpayment to the federal government as repayments were made.
                                                                                             to


Currently the state has paid CMS $1 4,296.29. The remaining 5200,543.71 will be repaid as ~ is
collected .

_          was identified by the auditors as having an overpayment of $86,090.77, of which only
 $78,090.77 was reported.        i                      amount of the overpayment. _         was
 found to have been working al                          though she was excluded. In June 2003,
 the State reached an                              required her to pay saO,500. The federal share
 of this amount was                  i was paid in the second quarter of 2003. The remainder
 was entirely state share because it involved claims to the Pharmaceutical Assistance to the
 Aged and Disabled, which is a state funded program.

_       was an independent contractor employed by ~. _                             was not a
 provider as defined in 42 CFR~04. He was orde~f $3,362 to the State
 on February 11 , 2009. Since _     was not a provider. (42 CFR §433.04), the slate was only
 obligated to return any overpayment to the federal government as repayments were made.


Offi cc of Inspeclor Generoln Ole : The de leted 1C.·'" hos been red ac led beeallse il oontoin s personally ident ifi abl e
andlor olher !;Cnsil ive in fom131ioll
                                                                                                                  Page40fS



 James P. Edert 

 June 25, 2012 

 Pag€ 4 



 Currenlly the state has paid the federal government $391.82. The remain ing $2,970.18 will be
 repaid as collected.

'1IIi!l!iIlll!lllIlllIllll!'-conducted a self-audit and sent a check for $4,373.94 to the Medicaid
 Fraud Division on March 30, 2009. This amount was not reported and $2,186.87 is due to eMS.
 Another check was received from _                in March, 2009 as the result of a different self-audit.
 That check was for S23,470.06 and was reported , and the federal share of &11,735.03 was paid
 in the eMS 64 for the first quarter of 2009.

_      was a physician who was not enrolled in Medicaid. He refused to pay $410.30 in 2007 and
 the Stale obtained payment through a with-hold by his employer in 2009. Only $270.27 was
 reported and the federal share of 5135.14 was shared with the eMS in the second quarter of
 2009. The remaining $139.1 3 was not reported. As a result. the state owes eMS an additional
 $70.01 .

                          was a Medicaid provider unlil February 9, 201              o. II!III!I!III!III!IIIII~
;0;;0;;",,. ,,;"';<;;, and discovered an overpayment of $53,216 which was identified and paid
in May 2009. The federal share was $3,405.82 (Temporary Assistance for Needy Families
funds) and was paid to eMS. The auditors stated that the remaining $49,810.18 was
unreported. The later amount was not reported nor shared since it was attributable to General
Assistance funds and not Medicaid. No further payment is due to eMS.

. . the owner of                             was sentenced to pay restitution of $5,500 and a
fine of $5,500 on April 2, 2008. Only the restitution amount of $5,500 was payable to the
DMAHS, not the $11 ,000. The State reported a $1,500 recovery and returned $750 in the first
quarter of 2009. The remaining $2,000 does not appear to have been paid and is owed to eMS.

_     a dentist, was sentenced on December 5, 2007 to pay $6,750 in restitution. That amount
was paid on April 9, 2008. The federal share of $3,375 was not paid and is owed to eMS.


                                                                                              ;
        work                                                         amounts ($17,012.45) was trebled,
adding up to                                  o;~~:'r,~:::::;:~)satisfied in August and September of
2009, and the                                !!                  was reflected in the eMS 64 for the
second quarter 0-,':0:_­                               terminated from the Medicaid program in 2008.
No other funds have                                   amount due to eMS is $18,675, to be shared as
collected.

                                     ..
1!!!1!!!"!I!!I!II!IIII!!!I~ as identified by the OIG Auditors as having an overpayment of
$544.04. which was unreported. The federal share of $272.02 is due eMS.

                                   identified by the OIG Auditors as having an overpayment of
                    was unreported. The federal share of $2,1 86.28 is due eMS.

Recommendation 2:

The OIG recommends that the State develop and implement policies 10 ensure that future
Medicaid overpayments are reported on Ihe correct eMS·54 in accordance wilh federal
requ irements:

Offiee of Inspector Genem[ note: The deleted text has been redacted because it contains pcrsonnH~' identifiable
and/or ot hcr scnsiti,'c infonnation.
                                                                                                   Page 5 of5



James P. Edert
June 25, 2012
Page 5



The State concurs with the draft report's recommendation and inlends to create and implement
these polices.

If you have any questions or require additional information, please con ta ct me or Richard Hurd
al 609-588·2550.

                                            Sincerely,


                                           \f'~
                                            Valerie Harr
                                            Director
c:       Jennifer Velez
         Richard Hurd
         Mark Anderson - MFD
